TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                   Inspection of the Exchange of Information
                    Process at the Plantation, Florida, Office



                                           July 25, 2012

                             Reference Number: 2012-IE-R006




 This report has cleared the Treasury Inspector General for Tax Administration (TIGTA) disclosure review
   process and information determined to be restricted from public release has been redacted from this
                                                document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                       DEPARTMENT OF THE TREASURY
                                              WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    July 25, 2012


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION



 FROM:                          R. David Holmgren
                                Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                       Final Inspection Report – Inspection of the Exchange of Information
                                Process at the Plantation, Florida, Office (#IE-12-007)

 This report presents the results of our inspection to ensure that the Internal Revenue Service’s
 (IRS) interaction with treaty partners through the international Exchange of Information (EOI)
 Program is conducted with the consistent application of relevant policies and procedures. The
 EOI Program is an important tool for effective tax administration in the global environment.
 International agreements, such as tax treaties and Tax Information Exchange Agreements
 (TIEA), are administered to avoid double taxation and to enforce the tax laws.

 Synopsis
 This review determined that the EOI Program, Plantation, Florida, office is largely operating in
 compliance with applicable Internal Revenue Manual (IRM)1 requirements. The inspection
 covered all 190 cases in the Plantation office EOI Program inventory that were closed from
 April 1, 2011, through March 31, 2012. Each case file was reviewed for documentation to verify
 that as many as 15 specific controls detailed in the IRM were appropriately followed.
 The results of two of the inspection items generated recommendations for improvement to the
 EOI Program operating procedures, as follows:




 1
   The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
 the IRS. It contains the directions employees need to carry out their operational responsibilities.
                             Inspection of the Exchange of Information Process
                                      at the Plantation, Florida Office




       2nd Level Managerial Approval (Specific Exchanges) – The IRM requires that all
        requests to foreign tax authorities be approved by second-level management.2 Our
        review determined that only 39 percent of the EOI cases involving an outgoing request to
        a foreign tax authority were approved by second-level management as required.
       60-Day Status Reports – The IRM requires that EOI Program offices provide 60-day
        status reports to the IRS field offices that have submitted a request for information from a
        foreign tax authority.3 Our review determined that, while most of the EOI cases
        involving a U.S.-initiated request pursuant to a tax treaty or a TIEA contained evidence
        of the required status report, 37 percent did not.
The results of four of the inspection items revealed that the Plantation office is largely in
compliance with IRM regulations:
       Competent Authority Delegation – The IRM requires that all exchanges of information
        with foreign tax administrations must occur through the U.S. Competent Authority.4 Our
        review determined that 100 percent of these exchanges were processed through the U.S.
        Competent Authority delegate.
       IRS Criteria Checklist – The IRM requires that each case “include a checklist that is to
        be completed on each incoming request to ensure that the foreign request meets IRS
        criteria.”5 Our review determined that checklists were completed in 98 percent of the
        cases involving a foreign-initiated request.
       Receipt Confirmation – The IRM requires that, upon receipt by a field office of a
        foreign-initiated request, the manager will confirm receipt with the EOI Program office
        and provide the assignment information.6 Our review determined that the field office
        confirmed receipt of the request in 96 percent of the cases in which foreign-initiated
        requests were referred to a field office.
       Field Office 60-Day Response/Status – Regarding foreign-initiated requests that are
        referred to a field office, the IRM requires that the revenue agent or international
        examiner obtain the requested information within 60 days from the date of the
        transmitting memorandum or provide a status report and the estimated completion date.7
        Our review determined that the field office provided the requested information or a status
        report within 60 days in 91 percent of the cases.


2
  IRM 4.60.1.2.4.2(3), Written Request Format (Jan. 1, 2002).
3
  IRM 4.60.1.2.4.3(4), U.S. Initiated Specific Requests (Jan. 1, 2002).
4
  IRM 4.60.1.2(3), Specific Exchange Program (Jan. 1, 2002).
5
  IRM 4.60.1.2.5(2), Foreign Initiated Specific Requests (Jan. 1, 2002).
6
  IRM 4.60.1.2.5.1.1(3), Procedures for SBSE and LMSB Cases (Jan. 1, 2002).
7
  IRM 4.60.1.2.5.1.1(3), Procedures for SBSE and LMSB Cases (Jan. 1, 2002).
                                                                                                   2
                                  Inspection of the Exchange of Information Process
                                           at the Plantation, Florida Office




The remaining nine inspection items were not applicable since the Plantation office did not
process and close during the time frame under inspection any of the applicable types of cases.
Our review determined that none of the requests from foreign competent authorities were
seeking Grand Jury information, there were no cases involving Simultaneous Examinations, and
there were no industry-wide exchanges with foreign tax authorities. Additionally, although the
inspection reviewed 32 Spontaneous Exchange cases, none of the cases were initiated by a U.S.
examiner requiring that the exchange be processed through a second-level manager (i.e., all of
the cases were initiated by foreign tax authorities).

Recommendations
We recommended that the Assistant Deputy Commissioner, International, evaluate whether the
following IRM requirements beneficially contribute to the effective administration of the EOI
Program:
          The IRM requires that all requests to foreign tax authorities be approved by second-level
           management.
          The IRM requires that EOI Program offices provide 60-day status reports to the IRS field
           offices that have submitted a request for information from a foreign tax authority.8
We further recommended that the Assistant Deputy Commissioner, International, ensure that the
IRM and any other local procedural guidance for EOI Program operations be revised as
necessary to be consistent with the evaluation described above and that effective managerial
oversight procedures are established to ensure compliance with those regulations.

Response
IRS management agreed with our recommendations. The IRS has evaluated the value of
requiring second-level managerial approval for EOI requests to foreign tax authorities and will
revise relevant regulatory guidance to allow for approval by front-line managers. Additionally,
the IRS has determined that the requirement will remain for EOI Program offices to provide
60-day status reports to the IRS field offices and will ensure compliance through operational
reviews and training workshops.
Please contact me at (202) 927-7048 if you have questions or Scott Sanders, International
Programs, Office of Inspections and Evaluations, at (202) 215-5796.




8
    IRM 4.60.1.2.4.3(4), U.S. Initiated Specific Requests (Jan. 1, 2002).
                                                                                                       3
                                Inspection of the Exchange of Information Process
                                         at the Plantation, Florida Office




                                             Table of Contents

Background........................................................................................... Page 1

Results of Review .............................................................................................. Page 2
         Exchanges of Information With Foreign Tax Administrations
         Were Transmitted Through the U.S. Competent Authority
         Delegate ....................................................................................................... Page 3
         Not All Requests to Foreign Tax Authorities Were
         Approved by Second-Level Management ................................................... Page 5
                   Recommendations 1 and 2: ........................................................ Page 6

         The Exchange of Information Program Office Did Not
         Always Provide 60-Day Status Reports....................................................... Page 7
                   Recommendation 3:.........................................................Page 7

                   Recommendations 4 and 5: ...............................................Page 8

         Checklists Were Completed to Ensure That Foreign-Initiated
         Requests Meet IRS Criteria ......................................................................... Page 8
         Field Offices Confirmed Receipt of 96 Percent of
         Foreign-Initiated Requests ........................................................................... Page 9
         Field Offices Provided the Requested Information or a
         Status Report Within 60 Days in 91 Percent of the Cases ........................... Page 9
         Grand Jury Information Was Not Requested by Foreign Tax
         Authorities.................................................................................................... Page 10
         The Exchange of Information Program Office Processed No
         Simultaneous Examination or Industry-Wide Exchange Cases................... Page 10
         No Outgoing Spontaneous Exchanges Were Processed
         Through the Plantation Office ..................................................................... Page 10
                         Inspection of the Exchange of Information Process
                                  at the Plantation, Florida Office



Appendices
     Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
     Appendix II – Major Contributors to This Report ....................................... Page 13
     Appendix III – Report Distribution List ...................................................... Page 14
     Appendix IV – Internal Revenue Manual Descriptions of the
     Exchange of Information Program............................................................... Page 15
     Appendix V – Exchange of Information Program Office,
     Plantation, Florida, Post Jurisdiction (as of June 2010)............................... Page 17
     Appendix VI – Management’s Response to the Draft Report ..................... Page 19
        Inspection of the Exchange of Information Process
                 at the Plantation, Florida Office




                 Abbreviations

EOI        Exchange of Information
IE         International Examiner
IRM        Internal Revenue Manual
IRS        Internal Revenue Service
RA         Revenue Agent
SBSE       Small Business/Self-Employed Division
SCIP       Simultaneous Criminal Investigation Program
SEP        Simultaneous Examination Program
TIEA       Tax Information Exchange Agreement
TIGTA      Treasury Inspector General for Tax Administration
U.S.       United States
                             Inspection of the Exchange of Information Process
                                      at the Plantation, Florida Office




                                             Background

The Exchange of Information (EOI) Program is an
important tool for effective tax administration in the                    Treaties generally obligate the
                                                                           competent authority to utilize
global environment. International agreements, such as                      the same measures to secure
tax treaties and Tax Information Exchange Agreements                      information for a treaty partner
(TIEA), are administered to avoid double taxation and to                    as they would for their own
enforce the tax laws.                                                              tax purposes.

This review determined that the EOI Program,
Plantation, Florida, office is largely operating in compliance with applicable Internal Revenue
Manual (IRM)1 requirements. The inspection covered all 190 cases in the Plantation office EOI
Program inventory that were closed from April 1, 2011, through March 31, 2012. Each case file
was reviewed for documentation to verify that as many as 15 specific controls detailed in the
IRM were appropriately followed.
This review was performed at the EOI Program Plantation, Florida, office during the period
April 9 through 13, 2012. We conducted this inspection in accordance with the Council of the
Inspectors General for Integrity and Efficiency Quality Standards for Inspections. The EOI cases
under inspection were all cases in the inventory of the Plantation office that were closed from
April 1, 2011, through March 31, 2012. Detailed information on our objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II. A listing of the countries within the jurisdiction of the Plantation office is provided
in Appendix V.




1
  The IRM is the Internal Revenue Service’s (IRS) primary official source of instructions to staff relating to the
administration and operations of the IRS. It contains the directions employees need to carry out their operational
responsibilities.
                                                                                                              Page 1
                            Inspection of the Exchange of Information Process
                                     at the Plantation, Florida Office




                                      Results of Review

A review of statutes and the IRM regulations identified the following guidance relevant to the
EOI process that was used in this inspection:
       IRM 4.60.1, International Procedures Handbook — Exchange of Information
        (Jan. 1, 2002);
       IRM 1.2.43.13, Delegation Order 4-12 (Rev. 2) (July 1, 2010);
       Title 26 United States Code Section 6103(k)(4);
       United States Model Tax Convention of November 15, 2006; and
       Treasury Order 150-10 (Apr. 22, 1982).
The local EOI procedural guidance for the Plantation office that was provided to the Treasury
Inspector General for Tax Administration (TIGTA) is in the form of three documents, detailing
procedures for three types of EOI cases.2 Chapter 1 provides guidance for cases “where the IRS
field office personnel request information that is publicly available in a foreign country.”
Chapter 2 provides guidance for outgoing cases “where field personnel request information,
pertaining to a specific taxpayer, and the request must [… be] sent to a competent authority of
the country to obtain the information.” Chapter 3 provides guidance for those cases involving an
incoming request from a foreign tax authority “for information for a ‘specific’ taxpayer or tax
entity that is under examination or investigation in the requesting country.”
The TIGTA reviewed a total of 190 EOI case files. Ninety-one of the cases involved a
foreign-initiated request from a tax treaty or TIEA partner for tax information regarding specific
taxpayers (two of which were rejected without further processing). The remaining 99 cases did
not contain a foreign-initiated request. Specific exchanges of information constituted the bulk of
these cases (148 cases). The majority of the specific exchanges, 91 cases, were incoming
requests from foreign tax authorities; 57 of the requests were outgoing requests initiated by IRS
field offices. There were no industry-wide exchanges or exchanges pursuant to the Simultaneous
Examination Program (SEP). There were 32 cases involving Spontaneous Exchanges, all of
which were initiated by a foreign tax authority. Additionally, there were 10 cases requesting
international assistance that did not require an exchange of information through the competent
authority of a foreign tax administration.



2
 This reference material does not have a title as a single manual. The separate sections provided to the TIGTA are
entitled Chapter 1, Chapter 2, and Chapter 3.
                                                                                                            Page 2
                             Inspection of the Exchange of Information Process
                                      at the Plantation, Florida Office




                            Figure 1: EOI Program Office Case Inventory

                  EOI Case Inventory Summary                                           Total
                                   Plantation, Florida
   
      EOI Program Office Inventory (Closed 4/1/2011 through 3/31/3012)                      190
   
      Specific Exchanges of Information                                                     148
            U.S.-Initiated Specific Exchange of Information                                 57
            Foreign-Initiated Specific Exchange of Information                              91
            Foreign-Initiated Requests for Grand Jury Information                            0
            Foreign-Initiated Requests Rejected                                              2
   
      Simultaneous Examination Program Exchanges                                             0
   
      Industry-Wide Exchange of Information                                                  0
   
      Spontaneous Exchange of Information                                                   32
            U.S.-Initiated Spontaneous Exchange of Information                               0
            Foreign-Initiated Spontaneous Exchange of Information                           32
   
      Non-EOI Requests for International Assistance                                         10
                                                                                                   
Source: TIGTA inspection of EOI case files, Plantation, Florida, April 2012.

Exchanges of Information With Foreign Tax Administrations Were
Transmitted Through the U.S. Competent Authority Delegate
Exchanges of tax information with foreign tax administrations must be accomplished through the
U.S. Competent Authority. This exchange of information is governed by the IRM, the disclosure
prohibitions of the Internal Revenue Code, and the provisions of the tax treaty or the TIEA with
the foreign tax administration.
The IRM states the following regarding exchanges of information through the U.S. Competent
Authority:

                                                                                                      Page 3
                           Inspection of the Exchange of Information Process
                                    at the Plantation, Florida Office



        Some foreign governments restrict investigative activities within their borders by
        other tax administrations. Hence, all exchanges of information with foreign tax
        administrations must occur through the U.S. Competent Authority.3
The Internal Revenue Code allows for the disclosure of returns or return information:
        …to a competent authority of a foreign government which has an income tax or
        gift and estate tax convention, or other convention or bilateral agreement relating
        to the exchange of tax information, with the United States but only to the extent
        provided in, and subject to the terms and conditions of, such convention or
        bilateral agreement.4
Tax treaties and TIEAs contain similar provisions regarding competent authorities. The
U.S. Model Tax Treaty specifies the responsibilities of the competent authorities as follows:
        The competent authorities of the Contracting States shall exchange such
        information as may be relevant for carrying out the provisions of this Convention
        or of the domestic laws of the Contracting States concerning taxes of every kind
        imposed by a Contracting State to the extent that the taxation thereunder is not
        contrary to the Convention, including information relating to the assessment or
        collection of, the enforcement or prosecution in respect of, or the determination of
        appeals in relation to, such taxes.5
The U.S. Model Tax Treaty further defines the competent authority in the United States as “the
Secretary of the Treasury or his delegate.”6 The Secretary of the Treasury has ordered that the
Commissioner of the Internal Revenue Service will be responsible for the administration and
enforcement of the internal revenue laws.7 The IRS has delegated the authority to act as the
competent authority to the Deputy Commissioner (International), Large Business and
International Division, and further authorizes the following officials to sign on behalf of the
competent authority delegate for matters arising under tax treaties, tax information exchange
agreements, tax coordination agreements, tax implementation agreements, and mutual legal
assistance treaties or agreements:8
           Director, Treaty Administration and International Coordination;
           Senior International Advisors;
           Program Manager, Exchange of Information and Overseas Operations;


3
  IRM 4.60.1.2(3), Specific Exchange Program (Jan. 1, 2002).
4
  Title 26 United States Code Section 6103(k)(4).
5
  United States Model Tax Convention of November 15, 2006, Article 26, Exchange of Information and
Administrative Assistance.
6
  United States Model Tax Convention of November 15, 2006, Article 3 General Definitions.
7
  Treasury Order 150-10, (Apr. 22, 1982).
8
  IRM 1.2.43.13, Delegation Order 4-12 (rev 2) (July 1, 2010).
                                                                                                     Page 4
                            Inspection of the Exchange of Information Process
                                     at the Plantation, Florida Office



            Program Manager, United States Territories;
            Group Managers, Treaty Administration;
            Internal Revenue Service Tax Attachés; and
            Revenue Service Representatives.
Our inspection found that 176 EOI cases involved the exchange of tax information with foreign
tax administrations. In the remaining cases, 10 were U.S.-initiated requests for international
assistance that did not require an exchange of information pursuant to a tax treaty or a TIEA with
a foreign tax authority and four involved a request from a foreign tax authority that did not result
in an outgoing exchange of information. Our review determined that all of these 176 exchanges
(100 percent) were processed through the U.S. Competent Authority delegate, either incoming or
outgoing. In four of the cases (2 percent), the revenue service representative delegated the
authority to another official and there was a properly executed memorandum from the revenue
service representative on file in the EOI Program office to support this delegation of authority to
“act as the RSR [revenue service representative] and to sign outgoing replies for the U.S.
Competent Authority.”9

Not All Requests to Foreign Tax Authorities Were Approved by
Second-Level Management
The IRM requires that all requests to foreign tax authorities be in writing if it is complex in
nature, the gathering of information will require a significant investment of time to obtain, or a
Tax Treaty/TIEA partner will be gathering the information.10 This regulation includes a
requirement that all requests be approved by second-level management.11
Chapter 2 of the local EOI procedural guidance for the Plantation office specifies that all
requests from IRS offices should be reviewed to determine if the request has been properly
made. That guidance states the following:
        The proper official should have signed the request. This is generally a manager
        at the second-level above the initiator.
Our review determined that 57 of the EOI cases involved a request to a foreign tax authority for
tax information. The remaining 133 cases did not include an outgoing request to a foreign tax
authority. Of the 57 outgoing requests, 22 requests (39 percent) were approved by second-level
management, 27 requests (47 percent) were approved by first-level management, seven requests
(12 percent) did not have any managerial approval documented in the case file, and one request
(2 percent) came from the Department of Justice.


9
  Delegation of Authority Memorandum (Mar. 8, 2012).
10
   IRM Section 4.60.1.2.4.2 (1), Written Request Format (Jan. 1, 2002).
11
   IRM Section 4.60.1.2.4.2 (3), Written Request Format (Jan. 1, 2002).
                                                                                              Page 5
                           Inspection of the Exchange of Information Process
                                    at the Plantation, Florida Office



         Figure 2: Level of Managerial Approval for Outgoing EOI Requests




 Source: TIGTA inspection of EOI case files, Plantation, Florida, April 2012.

Recommendations
Recommendation 1: The Assistant Deputy Commissioner, International, should evaluate the
relative value added to the EOI process of having requests to foreign tax authorities approved by
second-level management. This evaluation should consider both the benefits to the program and
the potential processing delays and other potential hindrances to the effectiveness of the program
resulting from second-level managerial approval.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       evaluated the existing IRM 4.60.1 and compared it to the existing IRM 25.5.1 with
       respect to the issuance of Administrative Summonses by various IRS functions.
       IRM 25.5.1.3.2 provides for front-line manager approval of an Administrative Summons.
       The relevant IRM 4.60.1.2.4.2(3) with respect to requests to foreign tax authorities will
       be amended to allow for approval by front-line managers.
Recommendation 2: The Assistant Deputy Commissioner, International, should ensure that
the IRM and other related guidance be revised, if necessary, to reflect the conclusions of the
evaluation referenced in Recommendation 1.
       Management’s Response: The IRS agreed with this recommendation.
       IRM 4.60.1.2.4.2(3) with respect to requests to foreign tax authorities will be amended to
       allow for approval by front-line managers.




                                                                                            Page 6
                                Inspection of the Exchange of Information Process
                                         at the Plantation, Florida Office




The Exchange of Information Program Office Did Not Always Provide
60-Day Status Reports
The IRM requires that, for all U.S.-initiated requests pursuant to a tax treaty or a TIEA, “the IRS
Tax Attaché or EOI program analyst assigned to the case will provide a status report on the case
every 60 days.”12 Chapter 2 of the local EOI procedural guidance for the Plantation office does
not contain a requirement for status reports to the IRS field office.
Our review determined that 57 of the EOI cases involved a U.S.-initiated request pursuant to a
tax treaty or a TIEA. The remaining 133 cases did not include a U.S.-initiated request for
information from a treaty/TIEA partner. In 36 of the 57 cases that contained a U.S.-initiated
request (63 percent), the EOI program office provided and documented in the case file a response
or a status report within 60 days. In the remaining 21 cases (37 percent), no response or status
report within 60-days was documented in the file.
              Figure 3: 60-Day Status Reports Provided by EOI Program Office




     Source: TIGTA inspection of EOI case files, Plantation, Florida, April 2012.

Recommendations
Recommendation 3: The Assistant Deputy Commissioner, International, should evaluate the
relative value added to the EOI process of requiring the EOI Program offices to provide 60-day


12
     IRM 4.60.1.2.4.3(4), U.S. Initiated Specific Requests (Jan. 1, 2002).

                                                                                             Page 7
                               Inspection of the Exchange of Information Process
                                        at the Plantation, Florida Office



status reports to the IRS field office. This evaluation should consider both the benefits to the
program and the potential administrative burden that this requirement places on the EOI Program
offices.
           Management’s Response: The IRS agreed with this recommendation. The IRS has
           determined that the requirement for EOI Program offices to provide 60-day status reports
           to the IRS field offices will remain to ensure a sense of urgency and maintain a line of
           communication.
Recommendation 4: The Assistant Deputy Commissioner, International, should establish
adequate managerial oversight procedures to ensure compliance with this requirement, if
applicable, based on the evaluation referenced in Recommendation 3.
           Management’s Response: The IRS agreed with this recommendation. The
           Assistant Deputy Commissioner, International, will ensure compliance through annual
           operational reviews and by delivering workshops focused on both procedural and
           technical aspects of the EOI Program.
Recommendation 5: As the IRM and the local EOI procedural guidance for the Plantation
office do not contain the same requirement for 60-day status reports, the Assistant Deputy
Commissioner, International, should ensure that the IRM and other procedural guidance
throughout the Service-wide EOI Program consistently reflect the results of the evaluation
referenced in Recommendation 3.
           Management’s Response: The IRS agreed with this recommendation. The
           Plantation EOI procedural guidance will be amended to adhere to IRM 4.60.1.2.4.3(4)
           regarding the requirements for 60-day status reports.

Checklists Were Completed to Ensure That Foreign-Initiated Requests
Meet IRS Criteria
Foreign-initiated requests from a tax treaty or TIEA partner for tax information regarding
specific taxpayers are considered on a case-by-case basis.13 The IRM requires that each case
“include a checklist that is to be completed on each incoming request to ensure that the foreign
request meets IRS criteria.”
The inspection found that 91 of the EOI cases involved a foreign-initiated request from a tax
treaty or TIEA partner for tax information regarding specific taxpayers. The review determined
that checklists were completed in 89 (98 percent) of the cases involving a foreign-initiated
request. In two of the cases (2 percent), the foreign request was rejected without further need for
completion of the checklist.


13
     IRM 4.60.1.2.5 (2), Foreign Initiated Specific Requests (Jan. 1, 2002).
                                                                                             Page 8
                              Inspection of the Exchange of Information Process
                                       at the Plantation, Florida Office




Field Offices Confirmed Receipt of 96 Percent of Foreign-Initiated
Requests
The IRM states the following regarding foreign-initiated requests that are referred to a field
office:
           Upon receipt by the Field Office, the manager will confirm receipt with the IRS
           Tax Attaché or the EOI program analyst and provide the assignment information,
           including contact numbers and the name of the RA [revenue agent] or IE
           [international examiner] assigned to the case.14
The review determined that there were 57 cases in which a foreign-initiated request was referred
to a field office. In 32 cases, the EOI Program office processed the request independently
without referring the request to a field office, and two cases involved foreign-initiated requests
that were rejected without further processing.
Of the 57 cases in which foreign-initiated requests were referred to a field office, the field office
confirmed receipt of the request in 55 of the cases (96 percent). In two of the cases (4 percent),
there was no contemporaneous receipt confirmation provided by the field office.

Field Offices Provided the Requested Information or a Status Report
Within 60 Days in 91 Percent of the Cases
The IRM states the following regarding foreign-initiated requests that are referred to a field
office:
           The RA or IE will obtain the requested information within 60 days from the date
           of the transmitting memorandum. If unable to meet this deadline, the RA or IE
           will contact the IRS Tax Attaché or EOI program analyst to provide a status
           report and the estimated completion date.15
Our review determined that there were 57 cases in which a foreign-initiated request was referred
to a field office. The field office provided the requested information or a status report within
60 days in 52 of the cases (91 percent). In five of the cases (9 percent), there was no response or
status report provided by the field office within 60 days.




14
     IRM 4.60.1.2.5.1.1(3), Procedures for SBSE and LMSB Cases, (January 1, 2002).
15
     Ibid.
                                                                                               Page 9
                              Inspection of the Exchange of Information Process
                                       at the Plantation, Florida Office



Grand Jury Information Was Not Requested by Foreign Tax Authorities
Information from a U.S. Grand Jury may be furnished to a foreign competent authority for tax
administration purposes; however, the IRM specifies that the “tax treaty partner will be required
to meet the requirements of showing a particularized need for the information that is sought
preliminarily to or in connection with a judicial proceeding.”16 Our review determined that none
of the requests from foreign competent authorities were seeking Grand Jury information.

The Exchange of Information Program Office Processed No
Simultaneous Examination or Industry-Wide Exchange Cases
As described in Appendix I, the inspection objectives included a review of Simultaneous
Examination Program cases for compliance with IRM requirements. However, our review
determined that no cases involving Simultaneous Examinations were processed in the EOI
Program Plantation, Florida, office. Similarly, the objectives of this inspection included
reviewing industry-wide exchanges with foreign tax authorities; however, no exchanges of this
type were processed and closed in the EOI Program office during the time frame under review.

No Outgoing Spontaneous Exchanges Were Processed Through the
Plantation Office
A spontaneous exchange of information is furnished to a tax treaty/TIEA partner without a
previous specific request. It typically involves information discovered during a tax examination,
investigation, or other procedure which suggests or establishes noncompliance with the tax laws
of a Tax Treaty/TIEA partner. The information may pertain to nonresident aliens, foreign
corporations, U.S. citizens and domestic corporations, or other taxpayers.17
Regarding spontaneous exchanges of information, the IRM states:
           The examiner securing the information will forward it to the second-level
           manager. The second-level manager will forward the information to the IRS Tax
           Attaché who has jurisdiction over the country to which the information pertains.
The inspection determined that 32 cases of spontaneous exchanges were processed through the
EOI program office; however, none of the cases were initiated by a U.S. examiner requiring that
the exchange be processed through a second-level manager (i.e., all of the cases were initiated by
foreign tax authorities).




16
     IRM 4.60.1.2.6(1), Grand Jury Cases (Jan. 1, 2002).
17
     IRM 4.60.1.5(2), Spontaneous Exchanges of Information (Jan. 1, 2002).
                                                                                              Page 10
                             Inspection of the Exchange of Information Process
                                      at the Plantation, Florida Office



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to ensure that the IRS’s interaction with treaty partners through the
international EOI Program is conducted with the consistent application of relevant policies and
procedures. Specifically, the inspection was designed to determine if the EOI operations in the
Plantation, Florida, office comply with IRM1 guidance, as follows:
   Competent Authority Delegation – Determined if the exchanges of information with
    foreign tax administrations were processed through the U.S. Competent Authority or their
    designate. References: IRM 4.60.1.2(3), Specific Exchange Program (Jan. 1, 2002);
    IRM 4.60.1.3.7(2), (5), & (6), Conduct of Simultaneous Examinations (Jan. 1, 2002);
    IRM 1.2.43.13, Delegation Order 4-12 (Rev. 2) (July 1, 2010).
   2nd Level Managerial Approval (Specific Exchanges) – Determined if requests to a foreign
    tax authority were approved by second-level management. Reference: IRM 4.60.1.2.4.2(3),
    Written Request Format (Jan. 1, 2002).
   60-Day Status Reports – Determined if the EOI Program office provided status reports on
    the cases every 60 days. Reference: IRM 4.60.1.2.4.3(4), U.S. Initiated Specific Requests
    (Jan. 1, 2002).
   IRS Criteria Checklist – Determined if the cases included a completed checklist to ensure
    that the foreign request meets IRS criteria. Reference: IRM 4.60.1.2.5(2), Foreign Initiated
    Specific Requests (Jan. 1, 2002).
   Receipt Confirmation – Determined if the field office submitted receipt confirmation
    and assignment information to the EOI Program office. Reference: IRM 4.60.1.2.5.1.1(3),
    Procedures for SBSE and LMSB Cases (Jan. 1, 2002).
   Field Office 60-Day Response/Status – Determined if the field offices provided the
    requested information or a status report to the EOI Program office within 60 days of the date
    of the transmitting memorandum. Reference: IRM 4.60.1.2.5.1.1(4), Procedures for SBSE
    and LMSB Cases (Jan. 1, 2002).
   Grand Jury Information – Determined if the treaty partners showed a particularized need
    for Grand Jury information that was sought. Reference: IRM 4.60.1.2.6(1), Grand Jury
    Cases (Jan. 1, 2002).


1
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
                                                                                                               Page 11
                          Inspection of the Exchange of Information Process
                                   at the Plantation, Florida Office



      SEP U.S. Proposal Format – Determined if the U.S.-initiated recommendations for
       simultaneous examination were prepared in the appropriate format. Reference:
       IRM 4.60.1.3.5(1), U.S. Initiated Proposals (Jan. 1, 2002).
      SEP 2nd Level Managerial Approval – Determined if U.S.-initiated recommendations for
       simultaneous examination were approved by second-level management. Reference:
       IRM 4.60.1.3.5(1), U.S. Initiated Proposals (Jan. 1, 2002).
      SEP Acceptance Confirmation – Determined if the acceptance and/or designated
       representative for simultaneous examinations was confirmed in writing. Reference:
       IRM 4.60.1.3.7(1), Conduct of Simultaneous Examinations (Jan. 1, 2002).
      SEP Quarterly Status Report – Determined if a status report was provided for ongoing
       simultaneous examinations within 10 working days of the end of each calendar quarter.
       Reference: IRM 4.60.1.3.8(1), SEP Reports (Jan. 1, 2002).
      SEP Conclusion/Discontinuance Report – Determined if a report was provided within
       30 calendar days of the conclusion or discontinuance of simultaneous examinations.
       Reference: IRM 4.60.1.3.8(2), SEP Reports (Jan. 1, 2002).
      Taxpayer Notice of SEP – Determined if the U.S. taxpayer was informed that he or she had
       been accepted for a simultaneous examination. Reference: IRM 4.60.1.3.9(1), SEP Reports
       (Jan. 1, 2002).
      Industry-wide Exchange Status Report – Determined if a status report was prepared on the
       activities of industry-wide exchanges. Reference: IRM 4.60.1.4(8), Industry-wide
       Exchanges of Information (Jan. 1, 2002).
      2nd Level Managerial Processing (Spontaneous Exchanges) – Determine if U.S.-initiated
       spontaneous exchanges of information were processed through the second-level manager.
       Reference: IRM 4.60.1.5(2), Spontaneous Exchanges of Information (Jan. 1, 2002).
To accomplish these objectives, the TIGTA conducted the following inspection activities:
I.        Identified and reviewed the IRM sections and other statutory and regulatory guidance
          relevant to the EOI process.
II.       Obtained and reviewed local procedural guidance used at the EOI Program Plantation,
          Florida, office.
III.      Reviewed the inventory of EOI case files in the EOI Program, Plantation, Florida, office
          that were closed between April 1, 2011, and March 31, 2012.
IV.       Interviewed the revenue service representative, EOI Program, Plantation, Florida, office.




                                                                                            Page 12
                       Inspection of the Exchange of Information Process
                                at the Plantation, Florida Office



                                                                   Appendix II

                 Major Contributors to This Report

Scott Sanders, Inspections & Evaluations/International




                                                                           Page 13
                      Inspection of the Exchange of Information Process
                               at the Plantation, Florida Office



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attention: Chief of Staff C
Deputy Commissioner, Services and Enforcement SE
Deputy Commissioner (International) SE:LB:IN
Assistant Deputy Commissioner, International SE:LB:IN
Acting Executive Assistant, International SE:LB:IN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                          Page 14
                             Inspection of the Exchange of Information Process
                                      at the Plantation, Florida Office



                                                                                                   Appendix IV

          Internal Revenue Manual Descriptions of the
               Exchange of Information Program

The IRM1 describes the IRS EOI Program as follows:2
Routine Exchange of Information
This is essentially a spontaneous exchange of information insofar as the information is not
specifically requested by the receiving country. When a treaty or TIEA enters into force, it is
generally agreed that information will be exchanged on a routine basis. It is sometimes also
called Automatic Exchange of Information. In terms of the information the U.S. provides to
treaty partners through this program, it currently includes information from Forms 1042S
[Foreign Person’s U.S. Source Income Subject to Withholding], relating to U.S. source fixed or
determinable income paid to persons claiming to be residents of the receiving treaty country.
Generally, the information IRS provides, and the information which IRS receives, consists of
hundreds of thousands of records exchanged by way of magnetic media (tapes or disks). These
records are processed at the Philadelphia Service Center and/or the Martinsburg Computing
Center (depending on whether incoming or outgoing). The primary applications of the program
are in the area of Returns Processing.
Specific Exchange of Information Program
Also known as Exchange of Information upon Request, this program involves the coordination
of both incoming and outgoing requests for information about specific taxpayers. Most requests
result from Examination of a particular tax return, although requests may also arise from
Collection activities or Criminal Investigations. Most requests, incoming and outgoing, are
handled by the IRS Tax Attachés (formerly Revenue Service Representatives). See IRM 4.30.3.
However, Exchange of Information Team program analysts in the Office of Director,
International (LMSB) handle incoming and outgoing requests involving Canada and France, and
cases where a summons needs to be prepared to secure the information requested by a treaty
partner. (Treaties generally obligate the Competent Authority to utilize the same measures to
secure information for a treaty partner as they would for their own tax purposes. As a result, it is
not uncommon to summon information on behalf of a treaty partner.) Most of the work done to
obtain information for a treaty partner is done in IRS field offices. Information secured is
transmitted to either the Exchange of Information Team or to the IRS Tax Attachés as the case

1
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
2
  IRM 4.60.1.1(6), Exchange of Information Overview (Jan. 1, 2002).
                                                                                                               Page 15
                        Inspection of the Exchange of Information Process
                                 at the Plantation, Florida Office



may be, who then prepares the necessary Competent Authority correspondence to legally
disclose and transmit the information to the treaty partner.
Spontaneous Exchange of Information
This program involves the exchange of information that has not been specifically requested, but
which in the judgment of the providing Competent Authority may be indicative of
noncompliance with a treaty partner’s tax laws and requirements. Outgoing (U.S.-initiated)
spontaneous exchanges generally begin when a Revenue Agent or International Examiner comes
across information during the course of an audit. This information concerns the treaty partner’s
taxpayer that may be indicative of noncompliance with the treaty partner’s tax laws.
Spontaneous exchanges may also be generated by other IRS investigation functions including
Criminal Investigation and SBSE [Small Business/Self-Employed Division] Compliance. The
information is forwarded through the appropriate field officials to the Director, International
(LMSB), where it is evaluated. If appropriate for exchange, the necessary Competent Authority
correspondence is prepared and the information is sent to the foreign competent authority for
evaluation. Exchange of Information Team program analysts and IRS Tax Attachés also
evaluate incoming (foreign-initiated) spontaneous exchange items and forward appropriate cases
to IRS field offices for action. The program analysts and Tax Attachés also follow up on the
outcome of all spontaneous exchanges.
Industry-wide Exchanges of Information Program
These exchanges involve meetings between U.S. and treaty partner Examination or Criminal
Investigation personnel. Industry-wide Exchanges of Information do not involve specific
taxpayer information. Instead they are exchanges of information about trends, operating
practices, pricing policies, know-how or experience, etc., in particular industries or economic
sectors. Exchange of Information Team program analysts work with field personnel, IRS Tax
Attachés and foreign officials in arranging these meetings.
Simultaneous Examination and Simultaneous Criminal Investigation
(SCIP) Programs
These programs involve cases where the U.S. and a treaty partner are examining (or
investigating) a taxpayer or related taxpayers, with common issues. In a simultaneous or SCIP
meeting, the examiners or investigators are afforded the opportunity to discuss issues, audit
plans, and information needs. Exchange of Information Team program analysts work with field
personnel, IRS Tax Attachés and foreign officials to present proposals to foreign competent
authorities, to evaluate proposals from foreign competent authorities, and to facilitate any
exchanges of information between governments which may be appropriate for each country to
complete its examination or investigation.




                                                                                           Page 16
                               Inspection of the Exchange of Information Process
                                        at the Plantation, Florida Office



                                                                                                     Appendix V

                Exchange of Information Program Office,
                  Plantation, Florida, Post Jurisdiction
                           (as of June 2010)                                    1




               Country                          Tax Treaty in Force                         TIEA in Force
               Anguilla
        Antigua & Barbuda                                                                           
              Argentina
                Aruba                                                                               
               Bahamas                                                                              
              Barbados                                                                             
                 Belize
               Bermuda                                                                             
                Bolivia
                 Brazil                                                                             
       British Virgin Islands                                                                       
          Cayman Islands                                                                            
                 Chile                                     
              Colombia                                                                              
              Costa Rica                                                                            
              Dominica                                                                              
       Dominican Republic                                                                           
               Ecuador
             El Salvador
           French Guiana
               Grenada                                                                              

1
    Interview with Raul Pertierra, revenue service representative, in Plantation, Florida (May 10, 2012).
                                                                                                            Page 17
                        Inspection of the Exchange of Information Process
                                 at the Plantation, Florida Office



          Country                 Tax Treaty in Force         TIEA in Force
        Guadeloupe
         Guatemala
          Guyana                                                   
            Haiti
         Honduras                                                  
          Jamaica                                                 
        Martinique
           Mexico                                                 
       Montserrat
    Netherland Antilles
(Curacao, Bonaire, St. Maarteen                                    
           & Saba)
         Nicaragua
          Panama                                                   
          Paraguay
            Peru                                                   
St. Barthelemy (St. Barts)
St. Christopher (St. Kitts)
        and Nevis
         St. Lucia                                                 
         St. Martin
St. Vincent and Grenadines
          Surinam
    Trinidad & Tobago                                             
      Turks & Caicos
          Uruguay
         Venezuela                        




                                                                              Page 18
       Inspection of the Exchange of Information Process
                at the Plantation, Florida Office



                                                  Appendix VI

Management’s Response to the Draft Report




                                                           Page 19
Inspection of the Exchange of Information Process
         at the Plantation, Florida Office




                                                    Page 20
Inspection of the Exchange of Information Process
         at the Plantation, Florida Office




                                                    Page 21
Inspection of the Exchange of Information Process
         at the Plantation, Florida Office




                                                    Page 22
Inspection of the Exchange of Information Process
         at the Plantation, Florida Office




                                                    Page 23
